No. _____

In the
Supreme Court of the United States
ERIC S. SCHMITT, in His Official Capacity as Attorney General of Missouri, et al.,
Petitioners,
v.
REPRODUCTIVE HEALTH SERVICES OF PLANNED PARENTHOOD OF THE ST. LOUIS
REGION, et al.,
Respondents.
On Petition for Writ of Certiorari to the
United States Court of Appeals for the Eighth Circuit

PETITION FOR WRIT OF CERTIORARI
CERTIFICATE OF SERVICE
In accordance with Rule 29.5(b) and the Court’s April 15, 2020, Order, I certify
that all parties required to be served, have been served, and that the required copies
of the Petition for Writ of Certiorari in the above captioned case have been sent to the
U.S. Supreme Court by commercial overnight delivery, and electronic copies were
served by electronic mail on the following parties listed below on June 30, 2021.
Claudia Hammerman
Paul, Weiss, Rifkind,
Wharton & Garrison LLP
1285 Avenue of the Americas
New York, NY 10019
(212) 373-3000
chammerman@paulweiss.com
Counsel for Reproductive Health
Services of Planned Parenthood
of the St. Louis Region, Inc., and
Colleen P. McNicholas

Dawn M. Parsons
Shaffer Lombardo Shurin
2001 Wyandotte St.
Kansas City, MO 64108
816-931-0500
dparsons@sls-law.com
Jim Michaels
St. Louis Circuit Attorney’s Office
1114 Market St., Suite 758
St. Louis, Missouri 63101
(314) 589-6243
michaelsj@stlouiscao.org
caocommunications@stlouiscao.org
Counsel for Kimberly M. Gardner, in
her official capacity as the Circuit
Attorney for the City of St. Louis

June 30, 2021

Respectfully submitted,
______________________
D. John Sauer
Solicitor General
Counsel of Record
OFFICE OF THE MISSOURI
ATTORNEY GENERAL
Supreme Court Building
207 West High Street
P.O. Box 899
Jefferson City, MO 65102
John.Sauer@ago.mo.gov
(573) 751-8870
Counsel for Petitioners

